U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Alabama Association of Realtors, et al. v. Department of Health and Human
Services et al., No. 20A169
Dear Mr. Harris:
This letter is to inform the Court that today, the Centers for Disease Control and Prevention
(CDC) published an order extending its temporary moratorium on residential evictions, previously
scheduled to expire on June 30, 2021, through July 31, 2021. In issuing the order, the CDC stated:
“Although this Order is subject to revision based on the changing public health landscape, absent
an unexpected change in the trajectory of the pandemic, CDC does not plan to extend the Order
further.” Order at 6; see also id. at 12.
The CDC determined that, “although the pandemic is showing positive trends,” “the risk
of large numbers of residential evictions contributing to the spread of COVID-19 throughout the
United States * * * continues to exist.” Order at 15. The CDC noted, for example, that the United
States continues to experience “ongoing transmission of approximately 10,000 cases per day.” Id.
at 13. It explained that “the vaccination program is still underway; nearly half of the eligible
population is not yet fully vaccinated; and children under age 12 are not yet eligible for vaccines.”
Id. at 4. The CDC further explained that “[n]ew variants * * * have emerged globally” and that,
for some of those variants, “there is evidence of an increase in transmissibility, more severe
disease, reduction in neutralization by antibodies generated during previous infection or
vaccination, reduced effectiveness of treatments or vaccines, or diagnostic detection failures.” Id.
at 4-5.
The CDC also observed that “[t]he Department of the Treasury continues to distribute
emergency rental assistance funds” appropriated by Congress. Order at 10. The CDC noted,
however, that “many states and localities are still ramping up the collection and processing of
applications and the delivery of assistance.” Id. at 13. The CDC determined that, “[i]f the
moratorium expires on June 30, a wave of evictions, on the order of hundreds of thousands, could
occur this summer and early fall, exacerbating the spread of COVID-19 among the significant
percentage of the population that remains unvaccinated.” Id. at 13-14. The CDC explained that
Congress intended that the emergency rental assistance funds “would work in concert with the
eviction moratorium,” and that “[a]llowing additional time for rent relief to reach renters * * * by
an extension through the month of July 2021 can decrease the numbers of likely evictions and

avert the potential of COVID-19 resurgence among people who experience eviction, their
communities, and other regions of the country affected by the resulting transmission.” Id. at 14.
A copy of the CDC’s order is enclosed. I would appreciate your distributing a copy of this
letter to the Members of the Court.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

2

SERVICE LIST: 20A169
ALABAMA ASSOCIATION OF REALTORS, ET AL. V. DEPARTMENT OF HEALTH AND
HUMAN SERVICES, ET AL.
BRETT A. SHUMATE
JONES DAY
51 LOUISIANA AVE., N.W.
WASHINGTON, DC 20001
202-879-3939
BSHUMATE@JONESDAY.COM
LOREN L. ALIKHAN
D.C. OFFICE OF THE ATTORNEY GENERAL
OFFICE OF THE SOLICITOR GENERAL
400 6TH STREET, NW
SUITE 81OO
WASHINGTON, DC 20001
202-727-6287
LOREN.ALIKHAN@DC.GOV

